            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION


         SINGLE AUDIT OF THE
   COMMONWEALTH OF PENNSYLVANIA
      FOR THE FISCAL YEAR ENDED
             JUNE 30, 2009

       APRIL 2011   A-77-11-00010




  MANAGEMENT
ADVISORY REPORT
                                               Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d
in ve s tig a tio n s , we ins p ire p u b lic c o n fid e nc e in th e in te g rity a n d s e c u rity o f
S S A’s p ro g ra m s a n d o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d
a b u s e . We p ro vid e tim e ly, u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to
Ad m in is tra tio n o ffic ia ls , Co n g re s s a n d th e p u b lic .

                                              Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive
u n its , c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). The m is s ion o f th e OIG,
a s s p e lle d o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d
     p ro p o s e d le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s
     a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d
     o f p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e
     re vie ws .

                                                Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d ,
wa s te a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n
e n viro n m e n t th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e n c ou ra g in g
e m p lo ye e d e ve lo p m e n t a n d re te n tio n a n d fo s te rin g d ive rs ity a n d
in n o va tio n .
                                    SOCIAL SECURITY
MEMORANDUM

Date:   April 26, 2011                                               Refer To:

To:     Frances Cord
        Director
        Audit Management Liaison Staff

From:   Inspector General

Subject: Management   Advisory Report: Single Audit of the Commonwealth of Pennsylvania for
        the Fiscal Year Ended June 30, 2009 (A-77-11-00010)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the Commonwealth of Pennsylvania for the Fiscal Year ended June 30, 2009.
        Our objective was to report internal control weaknesses, noncompliance issues, and
        unallowable costs identified in the single audit to SSA for resolution action.

        The Pennsylvania Auditor General and Ernst and Young, LLP performed the audit. The
        desk review conducted by the Department of Health and Human Services (HHS)
        concluded that the audit met Federal requirements. In reporting the results of the single
        audit, we relied entirely on the internal control and compliance work performed by the
        Pennsylvania Auditor General and Ernst & Young, LLP and the reviews performed by
        HHS. We conducted our review in accordance with the Council of the Inspectors
        General on Integrity and Efficiency’s Quality Standards for Inspection and Evaluation.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
        Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
        CFDA number 96. SSA is responsible for resolving single audit findings reported under
        this CFDA number.

        The Pennsylvania Bureau of Disability Determination (BDD) performs disability
        determinations under SSA’s DI and SSI programs in accordance with Federal
        regulations. SSA reimburses BDD for 100 percent of allowable costs. The Department
        of Labor and Industry (L&I) is the Pennsylvania BDD’s parent agency.
Page 2 – Frances Cord
The Office of Vocational Rehabilitation (OVR), within L&I, provides vocational
rehabilitation services to Social Security beneficiaries. SSA reimburses OVR for direct
costs of items purchased for these individuals and indirect costs related to
administrative, placement, and counseling services as well as tracking and monitoring
work activity.

The single audit reported:

1. OVR could not provide complete documentation to support SSA reimbursements
   totaling $9,722 for vocational rehabilitation services (Attachment A, page 1 and 2).
   The corrective action plan indicated that supporting documentation is now
   maintained electronically (Attachment A, page 2).

2. The Commonwealth of Pennsylvania was not in compliance with the Cash
   Management Improvement Act (CMIA) regulations and procedures for clearance
   pattern requirements and interest calculations. As a result, the CMIA Annual Report
   submitted to the Department of the Treasury misstated the interest liability by a
   minimum of $3.4 million (Attachment A, pages 3 through 10). The corrective action
   plan indicated the Commonwealth revised its agreement with Treasury and will remit
   interest due. (Attachment A, pages 8 through 10).

We recommend that SSA

1. Determine whether the reimbursements to OVR totaling $9,722 were appropriate
   and, if not, request a refund of the unallowable costs.
2. Ensure OVR is maintaining adequate documentation to support SSA
   reimbursements for vocational rehabilitation services. 1
3. Ensure that BDD cash draws are based on the CMIA.1

The single audit also disclosed the following findings that may affect BDD operations
although not specifically identified to SSA. I am bringing these matters to your attention
as they represent potentially serious service delivery and financial control problems for
the Agency. Specifically, the Commonwealth of Pennsylvania did not

•   maintain documentation to support contracting and procurement (Attachment B,
    pages 1 through 4).
•   have adequate general computer controls (Attachment B, pages 5 through 13).
•   have procedures to re-verify debarment or suspension of existing vendors
    (Attachment B, pages 14 and 15).


1
  We made this recommendation to SSA in a prior report (Management Advisory Report: Single Audit of
the Commonwealth of Pennsylvania for the Fiscal Year Ended June 30, 2008 (A-77-10-00003)).
Although we issued the prior report in March 2010, SSA has not completed corrective action on the
recommendation. Therefore, we repeat the recommendation in this report.
Page 3 – Frances Cord
Please send copies of the final Audit Clearance Document to Shannon Agee. If you
have questions, contact Shannon Agee at (816) 221-0315, extension 1537.




                                      Patrick P. O’Carroll, Jr.

Attachments
Attachment A
Page 1 of 10
Attachment A
Page 2 of 10
Attachment A
Page 3 of 10
Attachment A
Page 4 of 10
Attachment A
Page 5 of 10
Attachment A
Page 6 of 10
Attachment A
Page 7 of 10
Attachment A
Page 8 of 10
Attachment A
Page 9 of 10
Attachment A
Page 10 of 10
Attachment B
Page 1 of 15
Attachment B
Page 2 of 15
Attachment B
Page 3 of 15
Attachment B
Page 4 of 15
Attachment B
Page 5 of 15
Attachment B
Page 6 of 15
Attachment B
Page 7 of 15
Attachment B
Page 8 of 15
Attachment B
Page 9 of 15
Attachment B
Page 10 of 15
Attachment B
Page 11 of 15
Attachment B
Page 12 of 15
Attachment B
Page 13 of 15
Attachment B
Page 14 of 15
Attachment B
Page 15 of 15
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
